NO. ______________________
IN THE
SUPREME COURT OF THE UNITED STATES

CELSO YANEZ, Petitioner,
VS.
CALIFORNIA, Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL
SIXTH APPELLATE DISTRICT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

ALEXIS HALLER
Counsel of Record
LAW OFFICE OF ALEXIS HALLER
7960B Soquel Drive, #130
Aptos, California 95003
(831) 685-4730
ahaller@ahlawoffice.com
Counsel of Record for Petitioner,
CELSO YANEZ

TO THE HONORABLE CHIEF JUSTICE OF THE SUPREME COURT OF THE
UNITED STATES AND TO THE HONORABLE ASSOCIATE JUSTICES OF THE
COURT:
Pursuant to Rule 39 of the Rules of the Supreme Court of the United States, Petitioner
Celso Yanez ("Petitioner") respectfully requests leave to file a petition for writ of certiorari
in forma pauperis.

In making this application, Petitioner submits that he has been

represented by appointed counsel in both the California Court of Appeal and the California
Supreme Court. This fact is memorialized in the attached declaration of counsel and Exhibit
A thereto.
Dated: October 13, 2020

Respectfully submitted,

ALEXIS HALLER
Attorney for Petitioner,
Celso Yanez

DECLARATION OF ALEXIS HALLER

I am an attorney licensed to practice in California. I am a member of the bar of this
Court. I am the attorney of record for Petitioner Celso Yanez.
I have personal knowledge of the facts contained in this declaration and, if called as
a witness, I could and would testify competently thereto.
On July 17, 2017, Petitioner filed a notice of appeal. Subsequently, I was appointed
by the California Court of Appeal, Sixth Appellate District, to represent Petitioner (Case No.
H044868). A copy of the order of appointment is attached as Exhibit A. Pursuant to that
appointment, I filed pleadings on Petitioner's behalf in the California Court of Appeal and
the California Supreme Court. I have remained Petitioner's counsel of record to this time.
I declare under penalty of perjury under the laws of the United States of America that
the foregoing is true and correct.
Executed this 13th day of October, 2020, at Aptos, California.

ALEXIS HALLER

EXHIBIT A

SIXIB DISTRICT APPELLATE PROGRAM
95 S. Market Street, Suite 570
San Jose, CA 95113
(408) 241-6171

Ll COPY

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SIXTH APPELLATE DISTRICT
The People

v.
Celso Yanez

H044868
SANTA CLARA
Superior Court No. B1476089

COUNSEL APPOINTMENT ORDER
Notice is hereby given that the SIXTII DISTRICT APPELATE PROGRAM recommends the
hereinafter named attorney for purposes of representing the above-named client.

Alexis Haller September 05, 2017
Respectfully submitted:

~_)-&-,

/-;>Afa--

DALLASSACHER
Executive Director
Attorney's Address:
Alexis Haller (201210)
7960B Soquel Drive
#130

Aptos, CA 95003
(831) 685-4730
ahaller@ahlawoffice.com
Client's Address:
Celso Yanez BD2326
San Quentin State Prison

San Quentin, Ca 94974
I:JG

